No. 20-1004
ROBERT COLLIER,
Petitioner,

v.

DALLAS COUNTY HOSPITAL DISTRICT, doing business as
Parkland Health & Hospital System,

Respondent.

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
one copy of the foregoing Howard University School of
Law Human and Civil Rights Clinic’s Amicus Brief in
Support of Petitioner was sent via Next Day Service
to the U.S. Supreme Court, and via Next Day and email service to the following parties listed below, this
12th day of February 2021:
Brian Wolfman
Hannah Mullen
Georgetown Law Appellate Courts
Immersion Clinic
60 New Jersey Avenue., NW, Ste. 312
Washington, DC 20001
wolfman@georgetown.edu
Counsel for Petitioner

Joshua James Bennett
Carter Arnett PLLC
8150 N. Central Expressway, 5th Floor
Dallas, Texas 75206
(214) 550-2112
jbennett@carterarnett.com
Counsel for Respondent
/s/ Edward Williams
Counsel of Record

